audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the
	Gulf Shores, Alabama, Police Department
GR-40-99-004
December 1998
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Gulf Shores, Alabama, Police Department (grantee).  COPS awarded the grantee a total of $438,730 to hire five new police officers and redeploy the equivalent of 
2.8 existing full-time officers from administrative duties to community policing.
	
	We reviewed the grantee's compliance with eight essential grant conditions. 
We found the grantee met the grant conditions for budgeting, hiring, redeployment, retention, and implementation of community policing.  However, we found weaknesses in three areas as identified below.  As a result, we question 
$29,377 received by the grantee as unallowable and recommend an additional $106,591 be put to better use. 1

Grantee reimbursement requests contained unallowable costs for salaries, fringe benefits, and equipment purchases.  In addition, the grantee overestimated the cost of salaries and fringe benefits in the hiring grant application, resulting in grant funds that could be better used elsewhere.
	
	The grantee did not decrease the Federal share of costs claimed each year.   
   
	Several status reports were either not timely or not filed.
 
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.